 Audit of the Occupational Health &
  Safety and Medical Programs in
the United States Antarctic Program


      National Science Foundation
      Office of Inspector General


            March 17, 2003
             OIG 03-2-003
Audit of the Occupational Health & Safety and Medical
Programs In the United States Antarctic Program




                                            March 17, 2003
                                             OIG 03-2-003




                                National Science Foundation
                                 Office of Inspector General
Executive Summary


Purpose            This report provides the results of our audit of the occupational
                   health & safety and medical programs in the United States
                   Antarctic Program (USAP) instituted by the USAP contractor,
                   Raytheon Polar Services Company (Raytheon). The purpose of
                   our audit was to determine if the policies, procedures, and
                   performance of Raytheon’s occupational health and safety, and
                   medical programs ensure the overall health and safety of USAP
                   participants, and comply with National Science Foundation
                   (NSF) guidelines. Where relevant, we also assessed the
                   effectiveness of NSF’s oversight and support of its contract with
                   Raytheon.

Background         The USAP is the United States’ national program for scientific
                   research and geopolitical presence in Antarctica. The USAP is
                   funded and managed by the NSF through its Office of Polar
                   Programs (OPP). The main logistical and operational support
                   contractor for the USAP is Raytheon. As part of its contract
                   with NSF, Raytheon is responsible for maintaining a medical
                   program, which includes medical screening of personnel
                   deploying to Antarctica, and staffing and operation of medical
                   clinics at the three U.S. research bases on the Antarctic
                   continent and aboard the two NSF research vessels that support
                   the USAP. Raytheon is also responsible for providing an
                   occupational health and safety program.

Results in Brief   Overall, we found that Raytheon’s medical and occupational
                   health and safety programs do protect the overall health and
                   safety of the USAP participants. Raytheon’s medical program
                   has effective guidelines, policies and procedures in place to
                   provide oversight and guidance for healthcare delivery to a
                   medically screened population in Antarctica. The guidelines are
                   effective in screening and qualifying candidates for participation
                   in the USAP, and for delivering routine and emergency
                   healthcare in this remote environment.




                                    i
                  Executive Summary




                  Likewise, the occupational health and safety program ensures a
                  generally safe and healthful work environment free of
                  recognized hazards. Raytheon has demonstrated a strong
                  commitment to improving and maintaining the health and safety
                  and medical programs, and NSF’s review and oversight help to
                  ensure the continuing quality of these programs.

                  We noted, however, several opportunities for NSF and
                  Raytheon to further enhance the quality of its programs to
                  protect the health and safety of USAP participants. These
                  include:

                     •   Developing a life-cycle oriented capital asset
                         management program for the Antarctic research stations
                         and funding such a program as a dedicated line item in
                         its Research and Related Activities (R&RA) budget
                         request;

                     •   Developing and implementing a formal work center
                         assessment program to identify hazards and conditions
                         that contribute to musculoskeletal injuries at specific
                         work centers; and

                     •   Developing procedures for overseeing the shipboard
                         medical programs on the R/V Nathaniel B. Palmer and
                         the R/V Laurence M. Gould, and ensuring Raytheon’s
                         compliance with its contractual responsibility to provide
                         emergency medical technicians (EMT) on board the
                         Palmer and Gould.

                  Additionally, in the Other Considerations section of the report,
                  we note a few areas where Raytheon and NSF have made some
                  improvements, but continued attention or follow up is desirable.

Agency Response   NSF generally agreed with the recommendations addressing
                  hazards leading to musculoskeletal injuries and improving
                  shipboard medical programs. However, NSF disagreed with the
                  recommendation to improve its capital asset planning and
                  management, and to create a separate budget line item to fund
                  improvements, replacements and maintenance of Antarctic
                  infrastructure and facilities.


                                  ii
Executive Summary




In its comments, NSF suggests that its current processes to plan
for the infrastructure needs of its Antarctic research stations are
adequate and cites its successes in completing various
infrastructure initiatives. While we agree that NSF has done
extensive planning for the development of facilities and
infrastructure in Antarctica, our recommendation addresses a
part of NSF’s planning process where improvements are
needed, namely the development of a life cycle oriented capital
asset management program. By periodically and formally
evaluating the performance of its assets throughout the assets’
life cycles, NSF will be able to strategically plan for and timely
justify budgets to fund modifications, improvements, and
maintenance of these remotely located assets. In so doing, NSF
will minimize having to defer maintenance and improvements
that may affect the health and safety of USAP participants.

Further, although advisory panels have made similar
recommendations in the past, NSF does not believe it necessary
to create a separate line item in its budget to fund a capital asset
management program. NSF contends that such a separate line
item would restrict its ability to respond to unexpected changes
in the needs of the Antarctic program.

However, we are not suggesting a separate appropriation to fund
the infrastructure costs that would limit NSF’s flexibility.
Rather, we are recommending that NSF recognize and budget
for, within the Research and Related Activities appropriation,
funds specifically designated for infrastructure projects. As
circumstances arise that require redirecting funds to science or
emerging situations, NSF can consciously make those decisions
and readily justify the decisions to external parties. Therefore,
establishing a line item within the same appropriation will allow
NSF to retain the flexibility it desires to move funds to other
needs as unexpected circumstances arise, but still provide for
recognizing and tracking the effects of those decisions on
infrastructure activities. It will also help support future budget
requests for funds to address the projects that had to be deferred.

We have included NSF’s complete written response to the
findings and recommendations, in its entirety, as Appendix A to
this report.



                 iii
Contents


Executive Summary                                                 i


Background                                                        1

The United States Antarctic Program                               1

Raytheon Polar Services Company                                   3


Objectives, Scope and Methodology                                 5


Results of Audit                                                  7

Raytheon’s Medical and Occupational Health and Safety Programs
Protect USAP Participants                                         7

NSF Needs to Place Greater Emphasis on Life-Cycle Planning and
Budgeting for the USAP Facilities and Infrastructure              12

NSF and Raytheon Need to Improve Strategies to Address
Musculoskeletal Injuries                                          20

Raytheon Needs to Improve Oversight of Onboard Medical Programs   22


Other Considerations                                              26


Appendix A
Agency Response




                                           iv
                         Contents




Acronyms

NSF        National Science Foundation
OPP        Office of Polar Programs
USAP       United States Antarctic Program
R/V        Research Vessel
OSHA       Occupational Safety and Health Administration (or Act)
OMB        Office of Management and Budget
R&RA       Research & Related Activities
FEMC       Facility Engineering, Maintenance and Construction




                                         v
Background


             The United States Antarctic Program
             The United States Antarctic Program (USAP) is the United
             States’ national program for scientific research and geopolitical
             presence in Antarctica, the world’s seventh and southernmost
             continent. Through this program, the United States maintains a
             presence in Antarctica, funding and supporting the conduct of
             research and activities in all major scientific disciplines. This
             presence includes year round occupation of the South Pole and
             the two coastal stations, McMurdo and Palmer, as well as full
             logistical support for the approximately 1,300 program
             participants working in Antarctica, including more than 650
             scientists. The National Science Foundation (NSF), through its
             Office of Polar Programs (OPP), funds and manages the USAP.

             In addition to funding and supporting a diversified science
             program, NSF coordinates the resources of other government
             agencies providing operational support to the USAP. It also
             acquires and manages commercial contractors who support the
             science program, and operate and maintain U.S. Antarctic
             facilities. In terms of dollars, the USAP is one of the largest
             single projects funded by NSF. For fiscal year 2003, NSF has
             requested a budget of just under $240 million for the USAP out
             of a total budget request for OPP of just under $304 million.

             The USAP maintains three year-round research stations on the
             Antarctic continent – McMurdo, South Pole and Palmer, as well
             as a number of summer-season field camps used by McMurdo-
             based researchers. McMurdo, the USAP’s logistical hub, is the
             largest of the three stations and is located on Ross Island, where
             monthly mean temperatures range from minus 3 degrees
             Centigrade in January to minus 28 degrees Centigrade in
             August. Approximately 1,100 contractors, staff, and researchers
             make up McMurdo’s summer population; in the winter, the
             population drops to approximately 265. OPP schedules air
             transport between New Zealand and McMurdo several times per
             week during the austral summer months, early October through
             late February. Winter flights are provided in August, and are
             feasible throughout the rest of the winter, weather permitting,
             and if absolutely necessary. From McMurdo, participants are
             able to access the other stations and camps in the Antarctic.



                              1
Background




Research at McMurdo includes marine and terrestrial biology,
biomedicine, geology and geophysics, meteorology, and
glaciology and glacial geology. Amundsen-Scott South Pole
Station is the next largest of the three stations and is located at
the geographic South Pole. Monthly mean temperatures at
South Pole range from minus 28 degrees Centigrade in
December to minus 60 degrees Centigrade in July. The summer
population may be as high as 220, with approximately 50 people
staying over the winter. Over the past few years, the summer
population is higher than normal, due to the construction of the
new station. When completed, the new station will house
approximately 150 people. Research at the station includes
glaciology, geophysics, meteorology, upper atmosphere physics,
astronomy, astrophysics, and biomedical studies.

Palmer Station, located on Anvers Island in the Antarctic
Peninsula area near South America, is primarily a marine
biology laboratory, and is the smallest of the three research
stations. It is also logistically isolated from the other stations,
and relies on research vessels for transportation and supplies,
rather than aircraft. Monthly mean temperatures at Palmer are
mild compared to the other two stations and range from 2
degrees Centigrade in January and February to minus 10
degrees Centigrade in July and August. Currently, the station’s
population ranges from about 40 contractors, staff, and
researchers in the summer season, to about 10 in the winter.

The USAP also operates two ocean-going research vessels, the
R/V Laurence M. Gould and the R/V Nathaniel B. Palmer. The
Gould, a 239-foot, multi-disciplinary research platform,
accommodates up to 28 science personnel, and a minimum of 4
support staff, in addition to the operating crew. The Gould is
also the primary transport and supply provider for Palmer
Station. The Palmer is an ice breaking research vessel capable
of breaking three feet of level ice at three knots. It
accommodates 39 scientists, including 7 support staff, and
normally sails with an operating crew of between 20 and 24.




                 2
Background




NSF contracts with Raytheon Polar Services Company to
provide most of the logistical and support functions for the
Antarctic program. The exceptions are aircraft operations
provided by the Air National Guard, air traffic control and
certain meteorological services provided by the U.S. Navy,
heavy airlift capability provided by the U.S. Air Force, and
icebreaker support provided by the U.S. Coast Guard.

Raytheon Polar Services Company

Raytheon Polar Services Company (Raytheon), headquartered
in Centennial, Colorado, serves as the main logistical and
operational support contractor for the USAP. Raytheon is a
division of Raytheon Technical Services Company, which is
itself a subsidiary of Raytheon, Inc., a major U.S. Government
and defense contractor with approximately $16.9 billion in year
2001 revenues and 87,700 employees worldwide. Raytheon
exists exclusively to provide logistical and operational support
to the USAP, under contract with NSF. It has no other
customers.

As part of its contract with NSF, Raytheon maintains a Medical
Program, which provides services for all personnel deploying to
Antarctica, including researchers, contractors, distinguished
visitors, and NSF and Raytheon employees. The Medical
Program’s services include providing medical and dental
screening, and staffing and operating medical clinics at all three
U.S. research bases on the Antarctic continent. Raytheon’s
Medical Program also provides limited, on-board medical
services on the Gould and Palmer research vessels.

Raytheon also administers an Occupational Health and Safety
Program, made more difficult because of the extreme conditions
in the Antarctic. From the standpoint of enforcing occupational
health and safety requirements at an individual level, Raytheon
is only responsible for its own employees. However, Raytheon
maintains the safety and functionality of the buildings and
facilities at the USAP bases, and to that extent, the occupational
health and safety program safeguards all participants in the
USAP.




                 3
Background




Effective Medical and Occupational Safety and Health
Programs are critical to accomplishing NSF’s mission to
support science in the Antarctic. Temperatures on the continent
are extreme, and research stations and camps are logistically
isolated from each other. Although fewer researchers and
support staff remain at the stations in the harsh winters, those
that do are often isolated for several months. Access to capable
medical care, including fully functional equipment, adequate
supplies, and reliable communications during periods of
isolation, can literally be the difference between life and death.




                 4
Objectives, Scope and Methodology

                The objectives of our audit were to determine if the policies,
                procedures, and performance of Raytheon’s occupational health
                and safety, and medical programs ensure the overall health and
                safety of USAP participants, and comply with NSF guidelines.
                Where relevant, we also assessed the effectiveness of NSF’s
                oversight and support of its contract with Raytheon.

                To accomplish our objectives we reviewed Raytheon policies
                and procedures, including medical standard operating
                procedures and occupational health and safety programs and
                guidelines, and NSF regulations. To help us assess the
                effectiveness of Raytheon’s Medical Program, we contracted for
                the services of an expert in the field of remote medicine,
                Spinnaker Medical Consultants International, LLC. Spinnaker
                assessed the standard operating procedures, plans, and policies
                that Raytheon uses to guide its healthcare delivery in Antarctica,
                as well as required medical staffing and position descriptions.
                Spinnaker then compared these policies and procedures to
                standard industry practices and government regulations. We
                also researched Occupational Safety and Health Administration
                (OSHA) laws and regulations, which are used as guidance for
                Antarctica, and are referenced as such in NSF’s contract with
                Raytheon.

                Although Raytheon provides many health and safety-related
                services to USAP participants including its wellness program
                and other specific safety programs such as laboratory or field
                safety, we focused our review specifically on Raytheon’s
                Medical and Occupational Health & Safety Programs. We
                conducted site visits at two of the U.S. research stations in
                Antarctica (McMurdo and South Pole) during December 2001,
                and interviewed personnel at both stations to determine if the
                policies and procedures were being implemented. We
                interviewed key personnel at Raytheon headquarters in
                Colorado, to gain an understanding of the medical and
                occupational health and safety programs and what steps were
                being taken to improve the programs. We also interviewed
                personnel in OPP to determine NSF’s expectations for
                Raytheon’s performance under the Antarctic support contract
                and to discuss OPP’s support of the health and safety programs.




                                 5
Objectives, Scope and Methodology




We conducted our audit in accordance with generally accepted
government auditing standards during the period, May 2001
through November 2002.




               6
Results of Audit

                   Although we identified several areas for improvement, we
                   found that, in general, Raytheon’s Medical and Occupational
                   Health and Safety Programs protect the overall health and safety
                   of the many employees, contractors, and researchers who
                   participate in the U.S. Antarctic Program (USAP). Raytheon’s
                   Medical Program has effective guidelines, policies and
                   procedures in place to provide oversight and guidance for
                   healthcare delivery to a medically screened population in
                   Antarctica. The guidelines are effective in screening and
                   qualifying candidates for participation in the USAP, and for
                   delivering routine and emergency healthcare in this remote
                   environment. Likewise, the Occupational Health and Safety
                   Program ensures a generally safe and healthful work
                   environment free of recognized hazards. Raytheon has
                   demonstrated a strong commitment to improving and
                   maintaining the health and safety and medical programs, and
                   NSF’s review and oversight help to ensure the continuing
                   quality of these programs. These factors are critical considering
                   the challenges Raytheon faces in supporting Antarctic research
                   in extreme and isolated conditions.

                   However, we noted several opportunities for NSF and Raytheon
                   to further enhance the quality of its programs to protect the
                   health and safety of USAP participants. These include
                   opportunities to improve in the areas of long-range capital
                   planning and budgeting for facilities and infrastructure, training
                   and assessment of work centers to reduce the number of
                   musculoskeletal injuries, and oversight of the medical programs
                   aboard the USAP’s research vessels. Additionally, we note a
                   few areas where Raytheon and NSF have made some
                   improvements, but continued attention or follow up is desirable.

                   Raytheon’s Medical and Occupational Health and Safety
                   Programs Protect USAP Participants

                   In our opinion, Raytheon’s programs work to protect the health
                   and safety of USAP participants, and demonstrate Raytheon’s
                   commitment to health and safety, and generally comply with
                   NSF guidelines. In addition to providing a sound healthcare
                   program, Raytheon clearly emphasizes health and safety matters




                                    7
Results of Audit




to all USAP participants. We believe this emphasis is a major
factor in the success of these programs.

Under its contract with NSF, Raytheon’s Medical Program
provides medical screening to identify candidates that are
qualified for travel and assignment to the Antarctic, and
provides routine and emergency medical services for all USAP
participants on the Antarctic continent, as well as on the two
research vessels. Because all participants are screened prior to
deployment, Raytheon tailors these services to a relatively
healthy, low risk participant population. Raytheon also
administers an occupational health and safety program that
ensures a safe and healthful work environment free of
recognized hazards. NSF oversees both of these programs and
annually evaluates Raytheon’s performance in these areas.

Medical Program

Under the Medical Program, each clinic operated by Raytheon
in Antarctica must provide medical care comparable to an
emergency care/ambulatory care facility in the U.S. Clinical
staff must be experienced in diagnosing and treating injuries and
illnesses anticipated in the medically-screened USAP
population, stabilizing patients for transport to off-continent,
tertiary care facilities as needed, and providing routine health
and wellness care. Because the research stations in Antarctica
are physically isolated for several months during the winter,
health care providers need additional skills not normally
required elsewhere. For example, a physician who is wintering
over must be able to perform basic dental procedures.

An effective medical program for supporting Antarctic research
has two parts; an effective screening program, and a healthcare
delivery system on both the continent and the research vessels.
An effective screening program thoroughly screens candidates
prior to deployment, and results in a population in the Antarctic
that is relatively healthy and at a lower risk for medical
emergencies. Thus the screening should include requirements
for rigorous medical, dental and psychological evaluations, a
separate review of those evaluations to determine eligibility for
travel and assignment, and annual reviews of the process to
determine if the screening was effective in reducing medical


                   8
                                   Results of Audit




                                   emergencies and evacuations. Because the medical services
                                   provided in Antarctica are limited and participants with more
                                   serious injuries and illnesses must be evacuated, an effective
                                   screening program is extremely important. Strict physical and
                                   mental qualifications for deployment are necessary to ensure the
                                   health and safety of individual workers, and to prevent the cost
                                   of medical evacuations for medical situations that are likely to
                                   place individuals at extra risk.

                                   The healthcare delivery system must provide a level of care in
                                   Antarctica appropriate for a screened population in a hostile and
                                   remote environment. As such, the policies and procedures for
                                   delivering that healthcare must include an adequate staffing
                                   structure, protocol and policies for patient care, equipment that
                                   is properly tested and maintained, adequate inventories of
                                   medical supplies, procedures for evacuating at-risk patients, and
                                   quality assurance programs to evaluate the care that the program
                                   provides. Because the environment is remote, reliable
                                   communications plays an important part in delivering healthcare
                                   to the USAP participants.

                                   Raytheon has established an effective medical program for the
                                   Antarctic. Raytheon’s medical screening program complies with
                                   NSF’s medical screening regulation by requiring rigorous
                                   physical and psychological evaluations1 for candidates
                                   deploying to the continent. A medical consultant under contract
                                   to Raytheon then reviews the evaluations and makes the
                                   eligibility determination. As for healthcare delivery, Raytheon
                                   has staffed the clinics and research vessels in accordance with
                                   its operating procedures and we did not identify any issues with
                                   the staffing levels, except for one situation that we discuss
                                   further below. We determined that Raytheon properly tested
                                   and maintained the equipment, and generally maintained
                                   inventories of supplies and medicines adequately except as
                                   discussed in the other issues section of the report. NSF and
                                   Raytheon are exploring ways to bring about improvements in
                                   communications where opportunities exist, and expand the use
                                   of communications in the medical program. For example,
                                   during the 2002 winter season, medical staff at the South Pole
                                   successfully completed their first surgery using a “telemedicine
1
  Psychological evaluations are required only for those candidates who plan to remain in Antarctica throughout
the winter season.

                                                       9
Results of Audit




connection,” that allowed an orthopedic surgeon and an
anesthesiologist in the U.S, to assist the physician actually
performing the surgery.

Finally, NSF, together with Raytheon and an outside medical
review panel, convenes a medical conference to assess the
performance of the Medical Program, in detail, over the prior
year. The conferees’ assessment includes a review of incidents
that occurred during that time to determine if they could have
been prevented, and to identify opportunities for improvement.
The conferees pay particular attention to critical and non-critical
evacuations. This assessment is essential to resolving problems,
and to continually maintaining and improving the quality of the
entire medical program.

Our medical consultant, an expert in remote medicine, reviewed
and assessed the Medical Program’s staffing structure, policies,
procedures, guidelines, forms, manuals and handbooks. He
concluded that the guidance for the program is sound, and stated
his impression of the program is very positive. Furthermore,
although our consultant could not evaluate the actual quality of
medical care provided by the Raytheon medical program, he
determined that there were many policies and procedures in
place to provide oversight and guidance for healthcare.

Occupational Health and Safety Program

To meet the requirements of the NSF contract as well as its own
policy, Raytheon maintains an Occupational Health and Safety
Program intended to maintain working conditions and practices
that generally follow the relevant provisions of the Occupational
Safety and Health Act of 1970. Raytheon has set out this
program in its Health and Safety Program Manual, and its
Supervisor’s Health and Safety Handbook.

An effective health and safety program provides for a safe and
healthful work environment free of recognized hazards,
educates employees in such things as safe work habits and
practices, and ensures accountability for compliance with rules
and regulations. The program also assesses the work
environments and equipment frequently and regularly for safety
issues, and tracks and maintains records on accidents and


                10
Results of Audit




injuries. Additionally, such a program ensures that the
buildings and facilities, including work centers and housing, are
safe and free of hazards.

As a whole, we determined that Raytheon’s Occupational
Health and Safety Program works to protect its employees, and,
where appropriate, all USAP participants. Raytheon promotes
and emphasizes healthy and safe practices for its employees and
all USAP participants. In fact, NSF officials, and several
Raytheon employees who had spent prior seasons on the
continent under prior support contractors, advised us that they
have recognized a much greater emphasis on and commitment
to safety during Raytheon’s tenure. This commitment to safety
is evidenced by its Environmental Health & Safety Corrective
Action Program, which identifies actions to address safety
hazards. It has also established other programs and practices,
including the periodic safety work center inspections and
weekly work center safety meetings with employees, which
promote health and safety, help to identify and address safety
risks, and educate employees in general and specific safety
habits. At a particular work center, Raytheon employees have
become directly involved in working to identify and resolve
safety issues through a volunteer safety committee. Raytheon
has identified and is working to provide more appropriate
footwear for certain employees and contractors. It has
implemented an employee performance evaluation and bonus
program that holds individual employees accountable for their
safe performance. During our review, we did note several work
centers that require some type of alteration or upgrade to
eliminate various problems that could potentially affect the
health and safety of some participants. This issue is discussed
further below.

Raytheon maintains accident and injury statistics that provide
much detailed information for analysis. A few of the categories
include type of injury, cause, classification of the injured person
(Raytheon division, NSF, grantees, etc.), activity of the person
when the injury occurred, lost work days, etc. Raytheon then
analyzes the information to identify prevention strategies. For
the 2001-2002 contract year, injury and accident statistics
showed a marked improvement over the prior contract year.
Total injuries decreased by 12.7 percent, and, while the OSHA


                11
Results of Audit




total recordable incident rate increased from 16.41 to 18.45
incidents, the rate for the number of incidents that resulted in
lost work days decreased from 5.44 to 2.61, and the rate for the
number of lost work days (the lost work day severity rate)
decreased from 13.60 to 8.31.

NSF’s oversight of the Occupational Health and Safety Program
contributes to the effectiveness of the program. It has
incorporated into its contract a strong measurement program to
evaluate Raytheon’s performance, and it assesses the
performance metrics annually to determine Raytheon’s
compliance with the contract terms, as well as its eligibility for
the contract bonus. Also, NSF assesses Raytheon’s
implementation of the program through on site observations in
Antarctica.

Raytheon’s commitment to and emphasis on health and safety,
along with NSF’s oversight of Raytheon’s performance, are
important to the effectiveness of the Medical and Occupational
Health and Safety Programs. Nevertheless, we have noted a
few areas where NSF and Raytheon can take actions to improve
certain health and safety issues faced by the USAP. Our
discussion of these issues follows.

NSF Needs to Place Greater Emphasis on Life-Cycle
Planning and Budgeting for the USAP Facilities and
Infrastructure

The capital assets that make up the facilities and infrastructure
at the Antarctic research stations are deteriorating from age and
use, and include some facilities for which improvements have
not been funded, presenting varying degrees of health and safety
hazards. Several of the older work buildings at the stations have
ventilation, space and safety issues that create conditions that
may be hazardous to the health and safety of those who work in
the buildings. Given the hostile and remote environment in
Antarctica, and the USAP’s critical need for these assets to
perform as required to protect the safety and health of USAP
participants, a sound capital asset management program that
includes managing the assets throughout their life cycle and is
supported by specifically related budget requests, is essential to
address these issues. While NSF has developed long-range,


                12
                                 Results of Audit




                                 prioritized plans for developing and improving the capital assets
                                 in Antarctica, it does not have a consistent budgeting
                                 mechanism to adequately fund these improvement projects.
                                 Additionally, NSF needs to plan and budget for funds to
                                 undertake an ongoing cycle of long-range maintenance and
                                 repairs necessary to keep the USAP’s existing capital assets in
                                 acceptable and safe condition at the Antarctic stations. The
                                 health and safety of USAP participants using these assets should
                                 continue to be a primary consideration in prioritizing, requesting
                                 budgets, and funding all improvement, maintenance, and repair
                                 projects, as well as new development.

                                 A sound and disciplined capital asset management program
                                 ensures that an organization’s facilities support its ability to
                                 achieve its mission and strategic goals. As such, this long-range
                                 management program provides for periodically and formally
                                 evaluating the performance of the existing assets throughout
                                 their life cycle to plan for the assets’ continued use, and when
                                 necessary, their modification, improvement or termination, in
                                 light of the organization’s performance objectives. The result of
                                 this evaluation is a long-range capital asset plan that identifies
                                 future maintenance and repairs necessary to keep existing
                                 capital assets performing efficiently and safely for their
                                 expected useful lives, as well as identifies new facilities’
                                 procurement or construction needs to address new or expanded
                                 functions and mission requirements.2

                                 Additionally, an effective capital asset management program
                                 integrates a disciplined budget process that provides the basis
                                 for managing the capital assets for their complete life cycle.
                                 The Office of Management and Budget (OMB) Capital
                                 Programming Guide3 clearly identifies this unseverable link
                                 between planning and budgeting when it states that, “Thorough
                                 planning is particularly critical when managing within limited
                                 budgets. There can be no good budget without a plan, and there
                                 can be no executable plan without a budget to fund it.” Thus,
                                 the program’s long-range plans and prioritized projects that
                                 result from the periodic evaluations and assessments of the
                                 capital assets form the basis and justification for the budget

2
  Capital Programming Guide, Version 1.0, Supplement to Office of Management and Budget Circular A-11,
Part 3: Planning, Budgeting, and Acquisition of Capital Assets, dated July 1997.
3
  Id.

                                                   13
Results of Audit




requests and funding to implement these plans. Additionally, an
integrated capital asset management program provides needed
management information. For example, an integrated program
identifies unfunded, deferred maintenance or improvements,
and allows management to calculate the cost of such deferrals,
as well as the effect of the deferrals on mission and performance
goals. This information helps strengthen future requests for
funding to clear the backlog. Therefore, having a sound
strategic plan for the long-term maintenance and repair of
existing capital assets, and a periodic performance assessment
that identifies and updates the plan for alterations and
improvements, as well as new development, will be of limited
value unless a viable budget strategy exists to implement the
plan.

NSF needs to incorporate life cycle planning for its capital
assets. It has conducted extensive planning for the development
of new and the improvement of existing facilities and
infrastructure needs of the Antarctic research stations. For
example, NSF has a Long Range Development Plan for
McMurdo Station, which identifies prioritized major
improvement projects for the upgrade and replacement of
existing structures, and consultants are currently updating this
long-range vision for the future development of McMurdo.
Similarly, for the South Pole Station, NSF has a capital asset
development plan covering the new South Pole station currently
under construction. NSF’s current long-range vision for Palmer
Station foresees no significant changes in the facilities and
infrastructure. Additionally, NSF has a program in place to
handle short-term maintenance and repairs, and some preventive
maintenance, and includes an annual assessment of the current
condition of the facilities and infrastructure at the stations to
identify maintenance and repair needs for the coming year.
However, for the most part, NSF is lacking in the life cycle
aspect of its planning – the development of periodic, formal and
detailed evaluations and goals for its assets’ performance, and
the associated plans and forecasts for long-range maintenance,
major repairs, and the eventual replacement or other termination
of the USAP capital assets so that they continue to provide safe,
acceptable service and achieve or exceed their expected useful
lives.



                14
Results of Audit




In addition, NSF does not have a budget mechanism to provide
a dedicated source of funds to carry out a continuing capital
asset management program for the Antarctic stations. For
example, while NSF has funded the complete replacement and
modernization of the South Pole Station through the Major
Research Equipment and Facilities Construction (MREFC)
appropriation account, the longer-term costs to maintain and
repair these facilities after construction may not qualify for
funding from this account. For McMurdo Station and Palmer
Station, NSF estimates costs for the upcoming year’s
maintenance or repair of structures and facilities when
developing the Engineering, Construction and Facilities
Maintenance (EC&FM) portion of its annual budget for U.S.
Polar Research Programs, funded through NSF’s Research &
Related Activities (R&RA) account. As such, these capital
asset projects compete for funding with NSF’s day-to-day
operations that support the polar research program, as well as
the scientific research itself. Given the relatively large budgets
required for major facilities and infrastructure maintenance and
improvement projects, they are often deferred in favor of the
scientific research and supporting operations. This results in an
ad hoc, inconsistent, and reactive approach to capital asset
management that could ultimately jeopardize the safety and
health of USAP researchers and support personnel and the
ability of the capital assets to functionally support scientific
research.

As an example, while at McMurdo Station, we noted three work
center buildings whose improvements Raytheon considers to be
high priority. These buildings, the Facility Engineering
Maintenance and Construction (FEMC) building (building 136),
the carpenter shop (building 191/191A), and the paint barn
(building 177), are particularly problematic from the standpoint
of health and safety. The conditions include fire hazards, poor
ventilation, and overcrowding. When the current Long Range
Development Plan was implemented in 1996, NSF included
major improvement projects for two of the three buildings in the
Plan’s listing of prioritized projects for McMurdo. However,
these particular prioritized projects have yet to be funded, and
expected completion dates have yet to be established. While
NSF and Raytheon have instituted controls and procedures to


                15
                                   Results of Audit




                                   help mitigate the hazards found in these buildings, they are
                                   short-term solutions.4 Also, while NSF has made some
                                   headway since 1996 in completing other projects on the
                                   prioritized list, a number of the projects still remain.
                                   Furthermore, because priorities change, and NSF has not
                                   formally reprioritized its projects since 1996, one cannot
                                   determine if those completed projects were, in fact, the highest
                                   priority at the time the work was done. By recognizing these
                                   projects in a life-cycle asset management plan that is
                                   periodically and formally updated on a continual basis, NSF
                                   management and other decision makers can readily identify
                                   those projects needing priority attention and thereby justify the
                                   associated budget requests. Further, if the funding is not
                                   provided, such a plan will also allow NSF to carry these projects
                                   as deferred maintenance or improvements.

                                   Accordingly, the importance of a disciplined, integrated capital
                                   asset management program cannot be overstated. Deterioration
                                   and overuse of facilities and infrastructure, especially in such a
                                   remote and hostile environment, can adversely impact health
                                   and safety, reduce morale and productivity of USAP
                                   participants, and increase the need for costly major repair or
                                   early and unplanned replacement of the assets before they reach
                                   the end of their expected useful lives. Using an effective capital
                                   asset program that fully and formally combines long-range, life-
                                   cycle planning with a disciplined budget process as the basis for
                                   managing the USAP portfolio of capital assets will help NSF
                                   achieve its mission and strategic goals with the lowest life-cycle
                                   costs and the least risk. Additionally, the process will provide
                                   NSF with more accurate information on life-cycle costs, and
                                   more timely planning, prioritizing, and scheduling for long-
                                   range maintenance, improvement, and replacement needs, as
                                   well as the justification for budget requests to fund these
                                   projects. Given limited resources for competing needs, having


4
  For example, the flammable storage warehouse’s (building 174) dry chemical fire suppression system had been
disconnected due to problems with inadvertent chemical discharges of the system. In lieu of that system,
Raytheon had provided metal cabinets, specifically designed to store flammable materials. However, during a
tour of the building, we found that many flammable materials were stored outside of the cabinets, thus reducing
the effectiveness of Raytheon’s mitigating controls. Likewise, Raytheon has instituted administrative controls
designed to limit employees exposure to fumes in the paint barn (building 177).

                                                      16
Results of Audit




an effective capital asset management program that forecasts,
provides for, budgets for, and funds the acquisition, long-term
maintenance and eventual replacement of facilities and
infrastructure becomes that much more important.

Recommendation #1

Because the facilities and infrastructure in Antarctica are critical
to protecting the health and safety of USAP participants, NSF
needs to improve and formalize its capital asset planning to
ensure that it includes a life-cycle orientation, and identifies and
prioritizes future, long-range facilities and infrastructure needs.
In prioritizing the repairs maintenance, and eventual
improvement or replacement of these assets, NSF needs to pay
particular attention to related safety and health issues. Finally,
NSF needs to provide a dedicated budget to ensure that these
facilities and infrastructure priorities are funded. Without
adequate life-cycle planning and funding for ongoing, timely
maintenance, repair and improvement of the USAP facilities,
especially at McMurdo Station, NSF risks relying on aging and
deteriorating facilities and infrastructure that will likely
negatively impact the health and safety of the USAP
participants, and, ultimately, NSF’s ability to achieve its
mission of supporting world class science on the Antarctic
continent.

As such, we recommend that the NSF Director, Office of Polar
Programs:

       a) Build upon NSF’s existing and extensive Antarctic
          facilities and infrastructure plans to develop a life-
          cycle oriented capital asset management program for
          the Antarctic research stations. We recommend
          using the elements of OMB Circular A-11’s Capital
          Programming Guide as guidance in developing the
          capital asset management program. This program
          should include performing formal assessments of
          each asset’s or groups of assets’ future needs,
          documenting those needs, and establishing and
          annually updating priorities for addressing those
          needs. When prioritizing, NSF should ensure that it
          considers the actual and potential effects of those


                17
                                   Results of Audit




                                               needs on the health and safety of the USAP
                                               participants, and
                                            b) NSF should include in its R&RA budget request a
                                               separate line item dedicated to funding the capital
                                               asset management program for the Antarctic stations,
                                               especially for its most critical projects related to
                                               safety and health, to ensure that USAP participants
                                               are provided a safe and healthy living and working
                                               environment. The budget should be supported by
                                               cost-benefit analyses, cost estimates, schedules, and
                                               performance goals5 for the projects in the program.

                                   Agency Response

                                   Recommendation #1 (a)

                                   In its comments, NSF suggests that its current processes to plan
                                   for the infrastructure needs of its Antarctic research stations are
                                   adequate and highlights its successes in completing various
                                   infrastructure initiatives. We agree that NSF has done extensive
                                   planning regarding the development of facilities and
                                   infrastructure in Antarctica, and we applaud NSF for its
                                   consideration of health and safety issues as absolute priorities.
                                   However, our recommendation addresses a part of the planning
                                   process where improvements are needed, namely the
                                   development of a life cycle oriented capital asset management
                                   program for the Antarctic research stations.

                                   To ensure that the Antarctic facilities and infrastructure
                                   continue to protect the health and safety of USAP participants,
                                   NSF must periodically and formally evaluate the performance
                                   of its assets throughout the assets’ life cycles, as part of its long-
                                   range plans. With such a program, NSF will be able to
                                   strategically plan for and justify budgets to fund modification,
                                   improvement, and maintenance projects, and avoid having to
                                   defer maintenance and improvements that may affect USAP
                                   participants health and safety.


5
  This is not a novel recommendation. Similar recommendations and observations regarding the USAP facilities
and infrastructure have been made in The United States in Antarctica, Report of the U.S. Antarctica Program
External Panel (April 1997), and the Committee of Visitors Report on the Polar Research Support Section for the
review period 1998, 1999, and 2000.

                                                      18
Results of Audit




The long-range life-cycle capital asset planning for the facilities
and infrastructure at the Antarctic research stations affects the
condition of the facilities, and is, therefore, intimately and
inextricably linked to the health and safety of the USAP
participants. As such, we reaffirm our recommendation that
NSF should develop a life cycle oriented capital asset
management program for its Antarctic facilities and
infrastructure.

Agency Response

Recommendation #1 (b)

NSF generally agrees that adequate funding is needed to meet
Antarctic facilities and infrastructure needs, but disagrees with
the recommendation to create a separate line item in its budget
to fund a capital asset management program. NSF contends
that infrastructure needs are dependent on an ever-evolving
science program, and believes that a dedicated budget for
infrastructure would unduly restrict its ability to respond to
unexpected changes in the needs of the Antarctic program.

We understand the close ties between the Antarctic
infrastructure and the science programs it is meant to support,
and are sympathetic to the challenges NSF faces in allocating
limited resources among science programs, infrastructure and
supporting activities. However, while the specifics of the
science program and the need to address unforeseen situations
will certainly drive some decisions regarding infrastructure,
there are other parts of the infrastructure that must be in place,
regardless of the scientific research being conducted or
unforeseen situations, i.e., power or water plants, utility lines,
employee housing, etc. It is this basic infrastructure that must
be addressed by a dedicated budget.

Further, we are not suggesting a separate appropriation to fund
infrastructure costs that could limit NSF’s flexibility. Rather,
our recommendation is merely to recognize and budget for,
within the same appropriation, funds specifically designated for
infrastructure projects. Establishing a line item within the
Research and Related Activities appropriation will allow NSF to


                 19
                                   Results of Audit




                                   both retain the flexibility it desires to move funds to other needs
                                   as circumstances require, and yet recognize and track the effect
                                   of those decisions on its infrastructure activities. It will also
                                   support future budgets requests for funds to address those
                                   projects that had to be deferred.

                                   Additionally, as indicated in this report, our recommendation is
                                   not new; it is consistent with recommendations made by NSF’s
                                   own expert advisory committees including the U.S. Antarctica
                                   Program External Panel, and the Committee of Visitors on the
                                   Polar Research Support Section.

                                   Accordingly, we reaffirm our recommendation to establish a
                                   separate line item in the R&RA budget to fund a capital asset
                                   management program for the Antarctic research stations.

                                   NSF and Raytheon Need to Improve Strategies to Address
                                   Musculoskeletal Injuries

                                   Raytheon needs to improve its strategies to reduce the number
                                   of musculoskeletal injuries,6 especially in its work centers.
                                   While Raytheon has an active ergonomic program that trains
                                   and educates employees, and gathers, maintains and analyzes
                                   detailed data on injuries, it needs to institute a formal program
                                   to assess each work center on a regular basis. The program
                                   should also institute specific controls and training for each work
                                   center to address the hazards identified in its assessment.

                                   Musculoskeletal injuries are one of the most prevalent types of
                                   injuries in Antarctica. In reviewing Raytheon’s 2001-2002
                                   Injuries and Illness Report we found that, out of 359
                                   occupational injuries, approximately 47 percent involved some
                                   type of musculoskeletal injury. Besides the obvious pain and
                                   discomfort to the injured participant, musculoskeletal injuries
                                   also contribute disproportionately to the amount of lost work
                                   time which results in decreased productivity and possibly,
                                   increased operating costs. For 2001-2002, musculoskeletal
                                   injuries comprised approximately 59 percent of restricted duty
                                   cases and approximately 88 percent of lost work time injuries.

6
 Although Raytheon does not specifically define musculoskeletal injuries, for the purpose of this report, we
defined them as sprains, strains and repetitive motion injuries.

                                                       20
Results of Audit




The National Institute for Occupational Safety and Health states
that an effective ergonomic program to address musculoskeletal
injuries should include the following steps: looking for signs of
potential musculoskeletal problems in the workplace; showing
management commitment in addressing problems and
encouraging worker involvement; offering training to expand
management and worker ability to evaluate potential
musculoskeletal problems; gathering data to identify jobs or
work conditions that are most problematic; identifying and
instituting effective controls for tasks that pose a risk of
musculoskeletal injury, and evaluating the effectiveness of such
controls; and minimizing risk factors for musculoskeletal
disorders when planning new work processes and operations.
Therefore, assessing and addressing workplace hazards,
tracking data on injuries, and educating USAP participants to
increase their awareness of safety hazards is critical to
preventing and reducing the number of musculoskeletal injuries.

Raytheon collects detailed data on injuries and conducts
analyses to pinpoint potential problem areas. Raytheon also
provides extensive general safety training and orientation, both
prior to deployment and at the work locations, and has
encouraged employee involvement in the safety program
through employee surveys and the creation of an employee
safety committee in one of the work centers. However,
Raytheon does not, as a matter of policy, have a program in
place to regularly conduct workplace hazard assessments to
identify potential ergonomic problems specific to individual
work centers.

Instead, during the 2001-2002 summer research season, the
physical therapist assigned to McMurdo Station conducted
ergonomic hazard assessments and training specific to a work
center as her schedule permitted and at the request of the work
center. While Raytheon has made such assessments and
training part of the job duties of the physical therapist for the




                21
Results of Audit




2002-2003 summer research season, the assessments are not
required and are still done only at the request of a work center.

The operations and FEMC work centers incurred the greatest
number of occupational injuries, of which musculoskeletal
injuries are the largest percentage. Thus, a formal, cyclical
program to assess specific work centers to identify, and where
possible, correct ergonomic hazards and conditions, and conduct
training specifically designed to deal with those conditions,
would reach and educate the population that have incurred the
most accidents and injuries.

Recommendation #2

We believe Raytheon can realize improvements in its
musculoskeletal injury rates by instituting a formal work center
assessment program to identify musculoskeletal hazards at
specific work sites. The program should include instituting
work center specific controls and training to address the hazards
identified in these assessments.

Therefore, we recommend that the NSF Director, Office of
Polar Programs direct Raytheon to develop and implement a
formal work center assessment program to identify hazards and
conditions that contribute to musculoskeletal injuries at specific
work centers. The program should ensure that all work centers
are assessed on a regular basis, and that relevant training and
controls specific to the identified hazards are instituted as
needed to address the identified risks. Special attention should
be provided initially to those work centers that experience the
greatest number of musculoskeletal injuries.

Agency Response

NSF agreed, in general, with the recommendation, and noted
that Raytheon has already made great strides in reducing overall
reportable injury rates from Contract Year 1 to Contract Year 2.
NSF indicated that Raytheon has instituted a program of
periodic work center evaluations to address all hazards,
including ergonomic hazards, initially focusing on work centers
with high or severe injury rates.



                22
Results of Audit




Raytheon Needs to Improve Oversight of Onboard Medical
Programs

Raytheon needs to improve its oversight of the medical
programs on board the research vessels R/V Nathaniel B.
Palmer, and R/V Laurence M. Gould. Specifically, we found
that Raytheon did not, as a policy, staff the Gould with an
Emergency Medical Technician as required by its contract with
NSF. In addition, inventory levels of first aid supplies were not
adequately maintained and the shipboard emergency medical
reference manual was out of date.

The contract between NSF and Raytheon clearly requires that
each research vessel be staffed with an EMT, and states, at
Section C7.4.7.2 Research Vessel Staffing, that:

       The Contractor shall provide the shipboard staffing
       required to support the science program on each cruise
       of the [research vessel R/V] Nathaniel B. Palmer and/or
       the [research vessel R/V] Laurence M. Gould. Staffing
       shall typically consist of a Contractor
       coordinator/manager responsible for overall science
       support as well as for representing the Contractor when
       dealing with the ship’s Captain. At least one
       Contractor employee on every cruise shall be
       qualified as an Emergency Medical Technician
       (EMT). [Emphasis added]

Pursuant to the contract requirements, Raytheon’s policy calls
for the Palmer to be staffed with at least one employee with an
Emergency Medical Technician (EMT) certification at all times.
However, Raytheon was under the impression that this
contractual requirement did not apply to the Gould. The Gould
did have an EMT on board for most cruises because a particular
Raytheon employee on board happened to hold that
certification.




                23
Results of Audit



We also noted other instances where improvements are needed
in the shipboard medical program. For example, we found that
inventories of first-aid type medical supplies taken by shipboard
personnel in mid-January 2002, indicated that both vessels were
completely out of some items that are normally stocked in their
medical supplies, although the vessels were only half-way
through the research cruise season. We also noted that
Raytheon had not revised and updated the Shipboard
Emergency Medical Technician Reference Manual for the R/V
Nathaniel B. Palmer. The manual was last revised in June
1999; prior to the date that Raytheon took over support
responsibility for the USAP from the prior contractor. As such,
the manual contains many references to the former contractor,
including outdated contact phone numbers and electronic mail
addresses.

By not ensuring proper management and oversight of the
shipboard medical program, including maintaining adequate
inventories of medical supplies, keeping policy manuals and
contact information current, and providing a certified EMT on
all cruises for both of the research vessels, NSF and Raytheon
risk having an illness or injury occur during a cruise, not having
adequate supplies and/or qualified personnel on board to treat
the illness or injury, and risk not being able to quickly contact
the proper people for assistance. Besides the potential physical
harm to the researchers or crew, without qualified personnel to
treat an illness or injury, it is more likely that the research vessel
may have to interrupt its cruise and return to port.

We believe these problems occurred because Raytheon has not
established clear responsibility for overseeing the shipboard
medical program. Currently, the medical program on board the
ships is carried out through Raytheon’s marine services
department rather than its medical department. At the same
time however, the medical director, as head of Raytheon’s
Medical Program, has responsibility for the shipboard medical
program. As a result, coordination and communication between
the medical director and the marine services department
regarding the oversight of the shipboard medical program is
hampered.



                 24
Results of Audit



We discussed these issues with NSF, as well as the Raytheon
medical director and the medical department manager. NSF
advised us that they have clarified the contractual requirement
for an EMT on each cruise with Raytheon, and they will be
monitoring the staffing under this requirement closely. NSF has
also indicated to us that Raytheon’s medical department is
becoming more involved in the shipboard activities to improve
its management and oversight of the shipboard program.
Additionally, NSF plans to convene a working group to review
the level of care provided on the ships, including staffing and
equipment.

Recommendation #3

To improve oversight of the shipboard medical program, we
recommend that the NSF Director, Office of Polar Programs:

       a) Require Raytheon to develop procedures for
          overseeing the shipboard medical programs on the
          R/V Nathaniel B. Palmer and the R/V Laurence M.
          Gould. In particular, the procedures should clearly
          identify the organizational component of Raytheon
          responsible for the shipboard medical program and
          provide this component with the necessary authority
          to carry out this program. The procedures should
          also identify measures that will be taken to maintain
          appropriate levels of medical supplies on board each
          research vessel at all times and keep manuals and
          other forms and operating documents on the vessels
          up to date with the most current procedures and
          contact information, and

       b) Ensure that Raytheon is in compliance with its
          contractual responsibilities, by providing, as a stated
          policy, at least one qualified Emergency Medical
          Technician on each cruise of the R/V Nathaniel B.
          Palmer, as well as the R/V Laurence M. Gould.




               25
Agency Response

NSF agreed with the recommendation and has indicated that it
has directed Raytheon to develop a medical services
management program to clarify organizational responsibilities
and authorities. NSF also indicated that they would include a
review of shipboard medical activities as part of its annual
medical review.

Additionally, NSF noted that they have reminded Raytheon of
its contractual responsibility to ensure that the research vessels
are staffed with Emergency Medical Technicians, and will
continue to monitor Raytheon’s compliance with all of its
contractual obligations.




                26
Other Considerations

                In addition to the findings and recommendations discussed
                above, we identified several other matters that we believe
                warrant NSF’s and Raytheon’s attention. Although we have not
                made specific recommendations, we suggest NSF and Raytheon
                consider and evaluate these issues and take steps to improve or
                correct the issues as appropriate.

                Improving Medical Recruiting

                Under its contract with NSF, Raytheon recruits and hires
                medical personnel for the three Antarctic research stations,
                including physicians, mid-level medical personnel and clerical
                personnel. As part of the recruiting process Raytheon verifies
                the credentials of the individuals that it hires, and reviews and
                approves the new physicians’ requests for privileges to perform
                particular medical procedures at the clinics. In the past,
                Raytheon has had difficulties filling medical positions in time
                for deployment to the continent, leaving little time for credential
                verifications and the proper review of privileging requests. This
                has been a particularly weak point in the Raytheon program.
                Earlier, NSF had an audit conducted of Raytheon’s
                credentialing process, and found that the credentialing was
                poorly documented and the privileging process was not
                documented at all. Thus, the auditors could not determine to
                what extent the process had been implemented. During our
                fieldwork, we also reviewed the credentialing and privileging
                documentation. Although there appeared to be some
                information still missing from the credential files, we found that
                Raytheon had improved in its documentation of credentialing,
                but Raytheon still needs to improve its documentation of the
                privileging process.

                We believe recent changes Raytheon has implemented in its
                recruiting procedures will allow more time for recruiters to
                recruit, verify the qualifications of, credential, hire, and
                privilege its medical personnel for the USAP program as
                appropriate. NSF should continue to monitor Raytheon’s
                recruiting process, including documentation of its credentialing
                and privileging, to ensure the personnel Raytheon hires are fully
                qualified and able to perform as required. How well Raytheon
                implements this process directly affects the quality of care given
                to USAP participants in Antarctica.


                                27
Other Considerations




Agency Response

NSF indicated that they will continue to monitor the medical
recruiting process including conducting independent
credentialing audits. NSF noted that Raytheon has also
instituted new measures that include a formal indoctrination
program for medical staff and training in telemedicine at the
University of Texas (Medical Branch).

Maintaining Medical Equipment

Based on concerns raised by its biomedical technician,
Raytheon was developing a spare parts program for the
Antarctic medical equipment, at the time of our site visit. As a
part of that program, Raytheon was also developing a proper
inventory to repair and replace medical equipment parts.
Additionally, while Raytheon had in place a five-year
equipment upgrade and replacement plan, during our audit,
Raytheon’s medical department indicated they would be
reviewing and updating the five-year plan.

An adequate parts inventory are absolutely critical to
maintaining the equipment the physicians and technicians need
to diagnose and treat illnesses and injuries at the remote and
isolated medical clinics in Antarctica. As such, NSF should
continue to monitor the process to confirm that Raytheon has
completed and put in place the spare parts program, parts
inventory, and the upgrade and replacement plan. NSF should
also ensure that Raytheon continues to make keeping these
plans and the inventory updated a priority.

Agency Response

NSF indicated they are pleased with Raytheon’s progress in
addressing this issue and will continue to monitor this issue,
including evaluating Raytheon through contract performance
metrics.




                28
Other Considerations




Documenting Quality Control Checks on Medical and
Telemedicine Equipment

NSF and Raytheon need to ensure that medical personnel
maintain a properly documented program of quality control
checks on medical equipment used at the Antarctic clinics.
These checks serve not only to ensure that the equipment is
operating within expected parameters, but also help medical
personnel, often inexperienced in operating the equipment,
maintain a level of proficiency with the equipment.
Additionally, at the time the tests are performed, medical
personnel can confirm that they have an adequate inventory of
supplies for the equipment.

We found that one particular piece of equipment, the Ecktachem
chemical analyzer at the South Pole clinic, had no quality
control checks documented for almost seven months, and the
physicians who operated the analyzer had difficulty obtaining
accurate results. However, a medical laboratory technician
deployed to the South Pole to check the analyzer’s operation
found the analyzer was operating within expected parameters.
Because physicians do not generally have extensive experience
doing lab work, quality control checks on the analyzer would
not only assure the physicians that the equipment was working
properly, they would also help the physicians gain valuable
experience in operating the machine.

Raytheon now requires the physicians and physicians’ assistant
to perform monthly quality control tests on the analyzer and
send the results back to the medical director. However,
Raytheon should ensure that such tests are performed on all
medical equipment, as well as the telemedicine equipment and
communications, as appropriate. Such a testing program should
also include developing a proper inventory procedure to ensure
that sufficient supplies for the equipment are on hand. This will
help avoid the situations that have occurred, such as running out
of reagents used for certain chemical analyzer tests, or allowing
the reagents on hand to expire and thus become unusable for
testing during the isolated winter season. A properly
implemented testing program will ensure that the equipment is
working properly, necessary supplies are available, and
communications can be established when needed.


                29
                                    Other Considerations




                                    Telemedicine also requires a well-implemented quality control
                                    program. Telemedicine is a significant advancement that is
                                    having a huge impact on medical care in remote locations,
                                    including the USAP Antarctic stations, since it allows
                                    consultation with any number of medical specialists via voice,
                                    still picture and video communication.7 For telemedicine to be
                                    most beneficial, however, it must be as reliable as possible.
                                    Periodic testing of the telemedicine equipment at the USAP
                                    stations would ensure that the equipment is always ready for
                                    use, connections are reliable and personnel are familiar with its
                                    operation.

                                    Agency Response

                                    NSF stated that Raytheon has implemented monthly equipment
                                    checks and that NSF measures Raytheon’s performance through
                                    its annual contract evaluation.

                                    Ensuring the Accuracy of Pharmacy System Data

                                    Raytheon needs to develop ways to ensure the accuracy of the
                                    data in its pharmacy system. The current pharmacy system was
                                    new for the 2001-2002 season, and medical personnel at the
                                    clinics found it helpful in tracking the inventory of prescription
                                    medications. The system provides information on the number
                                    of drug lots available and the expiration dates of the drugs in
                                    inventory, and the information tracked in this system also
                                    provides data for one of Raytheon’s performance metrics under
                                    its contract with NSF; prescribing only unexpired medications.
                                    Tracking expiration dates in this system allows accurate
                                    measurement of this metric. However, Raytheon admits the
                                    program still has some “bugs” in it.

                                    We sampled a few of the program entries during our site visits
                                    to the McMurdo and South Pole Stations, and did find instances
                                    of incorrect lot numbers and expiration dates. The instances we
                                    found are a matter of inaccurate and/or confusing data entry,
                                    and we believe Raytheon should develop quality control
                                    procedures to ensure that such data entry errors are found and
                                    corrected in a timely fashion.
7
  In July 2002, the South Pole doctor performed the first ever telemedicine-assisted surgery at the South Pole,
repairing the damaged knee of a winter-over meteorologist.

                                                       30
                                Other Considerations




                                Agency Response

                                NSF acknowledged the need to improve the pharmacy system,
                                and noted that system refinements had been made since our site
                                visit. NSF further indicated that the system is at all three
                                stations and will be added to the two research vessels upon
                                resolution of computer networking issues.

                                Integrating Safety into Recruitment Efforts

                                As discussed earlier, Raytheon’s Occupational Health and
                                Safety Program is striving to make USAP participants more
                                “safety conscious.” Raytheon has provided its recruiters’
                                instruction on how to integrate safety into their recruitment
                                efforts. However, the recruiters’ performance evaluation is not
                                tied in any significant way to the actual safety performance of
                                the individuals they recruit.

                                We believe that investing the recruiters with a stake in the safety
                                performance of the individuals they recruit would provide them
                                with an incentive to ensure that they only recruit those
                                individuals with an appropriate safety attitude. A GAO report
                                discusses a similar recommendation for tying military recruiter
                                incentives to the percentage of recruits who successfully
                                complete basic training.8 While we leave it to Raytheon to
                                develop an appropriate incentive program, we realize that
                                negative incentives may not be appropriate, as the recruiters do
                                not have direct control over the action of their recruits. We
                                recommend a positive incentive program, perhaps tying a bonus
                                to the percentage of recruits that complete their contract with no
                                injuries.

                                Agency Response

                                NSF indicated that, along with Raytheon, they have been
                                reviewing recruiting efforts for over two years, and while safety
                                is one aspect of recruiting, the process has several other
                                variables. NSF further indicated that, while Raytheon has hired
                                professional recruiters, the main responsibility for safety rests
                                with the employees and on-site managers. Raytheon gives
8
 GAO Report NSIAD-97-39, Military Attrition: DOD Could Save Millions by Better Screening Enlisted
Personnel, dated January 1997.

                                                  31
                                   Other Considerations




                                   significant attention to safety in these areas, and NSF feels
                                   utilizing resources in these areas would have a more positive
                                   effect on on-site safety than recruiter bonuses.

                                   Ensuring Independence in Medical Screening Oversight

                                   In addition to operating the medical clinics in Antarctica,
                                   Raytheon qualifies prospective USAP participants as medically
                                   able to deploy to Antarctica. A contract physician advisor
                                   performs this screening, with input from the Raytheon medical
                                   director when questions arise. If a medically qualified
                                   individual later becomes ill or injured while on the continent,
                                   and must be transported out of Antarctica, the medical director
                                   must review the transport to determine, first, if it was necessary
                                   and second, if anything was missed during the screening
                                   process. This information is used to improve the screening
                                   process. Raytheon reports the findings of these reviews during
                                   the annual end of season medical conference held with NSF.
                                   However, we believe this is a conflict of interest since Raytheon
                                   is, in effect, evaluating and reporting on its own screening
                                   work.9

                                   In 2001, NSF contracted for an independent audit of Raytheon’s
                                   screening process. The independent auditors generally agreed
                                   with all of the screening decisions reviewed, but raised concerns
                                   regarding the lack of documentation for some of the decisions.
                                   Raytheon has since addressed the documentation. Based on this
                                   assessment, NSF has indicated they are comfortable allowing
                                   Raytheon to continue both the actual screening, and the review
                                   of screening decisions unless it appears to NSF that the conflict
                                   may be affecting the integrity of the screening process. We
                                   fully agree that the independent assessment mitigates this
                                   conflict, but suggest that NSF maintain its vigilance in this
                                   matter by continuing to periodically contract for audits of the
                                   screening and review processes.




9
 A similar, potential conflict was discussed regarding military review of enlistee screening decisions in GAO
Report NSIAD-97-39, Military Attrition: DOD Could Save Millions by Better Screening Enlisted Personnel,
dated January 1997.

                                                       32
Other Considerations




Agency Response

NSF stated that Raytheon reviews medical evacuations at NSF’s
request, and that NSF plans to continue its long-standing
practice of convening independent reviews of Raytheon’s
screening decisions.




               33
